CERTIFICATE OF LENGTH
I certify that this PETITION FOR A WRIT OF CERTIORARI was prepared by
petitioner using Google Docs, which reports that it contains a total of 6,909 words.
I declare under penalty of perjury that the foregoing is true and correct.

DATED: March 11,2020 per request of the Court Clerk in Washington, letter attached for
verification. Petitioner sent Writ overnight by United States mail on this date.

Respectfully submitted by:

find/n
Kimr/er, Petitioner, pro se

Audrey

PO Box 1493 *
Carmel, CA 93921
843-754-1543
audreykimnerl 0@gmail.com

pr6 IL

